                   AUDIT REPORT

                   Audit of NRC’s Shared ―S‖ Drive



                        OIG-11-A-15 July 27, 2011




All publicly available OIG reports (including this report) are accessible through
                              NRC’s Web site at:
             http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                 UNITED STATES
                         NUCLEAR REGULATORY COMMISSION
                                 WASHINGTON, D.C. 20555-0001



OFFICE OF THE
INSPECTOR GENERAL


                                      July 27, 2011



MEMORANDUM TO:              R. William Borchardt
                            Executive Director for Operations



FROM:                       Stephen D. Dingbaum /RA/
                            Assistant Inspector General for Audits


SUBJECT:                    AUDIT OF NRC'S SHARED “S” DRIVE
                            (OIG-11-A-15)


Attached is the Office of the Inspector General’s (OIG) audit report titled, Audit of NRC's
Shared “S” Drive.

The report presents the results of the subject audit. Informal comments provided by
agency management and staff have been incorporated, as appropriate, into this report.

Please provide information on actions taken or planned on each of the
recommendations within 30 days of the date of this memorandum. Actions taken or
planned are subject to OIG followup as stated in Management Directive 6.1.

We appreciate the cooperation extended to us by members of your staff during the
audit. If you have any questions or comments about our report, please contact me at
415-5915 or Beth Serepca, Security and Information Team Leader, at 415-5911.

Attachment: As stated
Electronic Distribution

Edwin M. Hackett, Executive Director, Advisory Committee
  on Reactor Safeguards
E. Roy Hawkens, Chief Administrative Judge, Atomic Safety
  and Licensing Board Panel
Stephen G. Burns, General Counsel
Brooke D. Poole, Director, Office of Commission Appellate Adjudication
James E. Dyer, Chief Financial Officer
Margaret M. Doane, Director, Office of International Programs
Rebecca L. Schmidt, Director, Office of Congressional Affairs
Eliot B. Brenner, Director, Office of Public Affairs
Annette Vietti-Cook, Secretary of the Commission
R. William Borchardt, Executive Director for Operations
Michael F. Weber, Deputy Executive Director for Materials, Waste,
  Research, State, Tribal, and Compliance Programs, OEDO
Darren B. Ash, Deputy Executive Director
  for Corporate Management, OEDO
Martin J. Virgilio, Deputy Executive Director for Reactor
  and Preparedness Programs, OEDO
Nader L. Mamish, Assistant for Operations, OEDO
Kathryn O. Greene, Director, Office of Administration
Patrick D. Howard, Director, Computer Security Office
Roy P. Zimmerman, Director, Office of Enforcement
Charles L. Miller, Director, Office of Federal and State Materials
  and Environmental Management Programs
Cheryl L. McCrary, Director, Office of Investigations
Thomas M. Boyce, Director, Office of Information Services
Miriam L. Cohen, Director, Office of Human Resources
Michael R. Johnson, Director, Office of New Reactors
Catherine Haney, Director, Office of Nuclear Material Safety
  and Safeguards
Eric J. Leeds, Director, Office of Nuclear Reactor Regulation
Brian W. Sheron, Director, Office of Nuclear Regulatory Research
Corenthis B. Kelley, Director, Office of Small Business and Civil Rights
James T. Wiggins, Director, Office of Nuclear Security
  and Incident Response
William M. Dean, Acting Regional Administrator, Region I
Victor M. McCree, Regional Administrator, Region II
Mark A. Satorius, Regional Administrator, Region III
Elmo E. Collins, Jr., Regional Administrator, Region IV
                                                                                Audit of NRC’s Shared ―S‖ Drive



EXECUTIVE SUMMARY

          BACKGROUND

                   The President of the United States has directed Federal agencies to
                   promote information sharing with the public and improve the transparency
                   of Government operations.1 Nevertheless, applicable laws and
                   Governmentwide policies require the U.S. Nuclear Regulatory
                   Commission (NRC) and other Federal agencies to protect some types of
                   information against accidental or intentional disclosure.

                   NRC staff process on agency networks a category of sensitive
                   unclassified information unique to NRC called Sensitive Unclassified Non-
                   Safeguards2 Information (SUNSI).3 NRC defines SUNSI as:

                           …any information of which the loss, misuse,
                           modification, or unauthorized access can reasonably
                           be foreseen to harm the public interest, the
                           commercial or financial interests of the entity or
                           individual to whom the information pertains, the
                           conduct of NRC and Federal programs, or the
                           personal privacy of individuals.

                   NRC staff can process electronic documents containing SUNSI in a
                   variety of ways. For instance, some documents may be saved in the non-
                   public version of NRC’s online data system — the Agencywide Documents
                   Access and Management System (ADAMS)4. Staff may also exchange
                   documents on internal SharePoint5 Web sites, which staff can configure to
1
 Office of Management and Budget Memorandum M-10-06; Subject: Open Government Directive;
December 8, 2009.
2
 Safeguards information is information relating to certain material control and accounting procedures for
special nuclear material or security measures for the physical protection of special nuclear material,
source material, or byproduct material.
3
  NRC includes Personally Identifiable Information (PII) as a category of SUNSI. PII includes information
that can be used to distinguish or trace an individual’s identity, such as one’s date of birth, Social Security
Number, or home contact information.
4
    ADAMS is NRC’s official repository for documents pertaining to the agency’s regulatory activities.
5
 SharePoint is a software program that allows staff to set up Web sites to share information with others
and allows staff to manage documents. SharePoint can be used to manage databases, reports, and
business applications.

                                                       ii
                                                                            Audit of NRC’s Shared ―S‖ Drive



                  limit access rights to specific employees or groups of employees.
                  Additionally, NRC staff can save documents on shared network drives.6
                  These shared drives include ―G‖ drives accessible by staff within NRC
                  program offices; an ―R‖ drive, an agencywide drive with read-only access;
                  and an ―S‖ drive, which allows all staff, whose user accounts are on the
                  same file server, to add, read, edit, and delete documents unless
                  documents are stored in folders configured to limit access to specific
                  employees or groups of employees. Regardless of how NRC employees
                  exchange SUNSI on agency networks, Federal law requires that NRC
                  maintain adequate controls over the confidentiality, integrity, and
                  availability of this information.7

          PURPOSE

                  The audit objective was to assess whether NRC effectively protects
                  electronic documents containing Personally Identifiable Information (PII)
                  and other types of SUNSI on NRC’s shared network drives.

          RESULTS IN BRIEF

                  NRC has policies for protecting electronic documents containing SUNSI
                  that are processed on agency shared network drives. Nevertheless, NRC
                  can improve training, communication, coordination, and quality assurance
                  controls to ensure that access to these documents is limited to a need-to-
                  know basis. NRC guidance requires that access to documents containing
                  SUNSI be controlled on a need-to-know basis. NRC has procedures to
                  control documents containing SUNSI that are stored on its computer
                  network. Nevertheless, auditors found documents containing specific
                  types of SUNSI, such as PII and allegations material, on shared network
                  drives without appropriate protections.




6
 Documents containing classified or Safeguards information may not be processed on NRC’s
unclassified networks or placed in ADAMS.
7
    Federal Information Security Management Act of 2002, 44 U.S.C § 3542.


                                                   iii
                                                       Audit of NRC’s Shared ―S‖ Drive



RECOMMENDATIONS

     This report makes recommendations to improve training, communication,
     coordination, and quality assurance controls to ensure SUNSI is limited to
     a need-to-know basis.

AGENCY COMMENTS

     At an exit conference on June 30, 2011, agency management provided
     informal comments on a draft of this report. The Office of the Inspector
     General incorporated some of these comments as appropriate. As a
     result, the agency opted not to provide formal comments for inclusion in
     this report.




                                  iv
                                                     Audit of NRC’s Shared ―S‖ Drive



ABBREVIATIONS AND ACRONYMS

       ADAMS   Agencywide Documents Access and Management System

       CSO     Computer Security Office

       CUI     Controlled Unclassified Information

       IT      information technology

       NARA    U.S. National Archives and Records Administration

       NRC     U.S. Nuclear Regulatory Commission

       OIG     Office of the Inspector General

       OIS     Office of Information Services

       PII     Personally Identifiable Information

       SBU     Sensitive but Unclassified

       SUNSI   Sensitive Unclassified Non-Safeguards Information




                               v
                                                                                Audit of NRC’s Shared ―S‖ Drive



TABLE OF CONTENTS

        EXECUTIVE SUMMARY ............................................................................ i

        ABBREVIATIONS AND ACRONYMS ........................................................ iv

           I.    BACKGROUND .............................................................................. 1

           II.   PURPOSE ...................................................................................... 4

           III. FINDING ......................................................................................... 4

                 NRC CAN IMPROVE TRAINING, COMMUNICATION, COORDINATION, AND QUALITY
                 ASSURANCE CONTROLS TO ENSURE SECURITY OF SUNSI ON NETWORK DRIVES ..... 4


           IV. RECOMMENDATIONS ................................................................. 10

           V. AGENCY COMMENTS ................................................................. 11

        APPENDIX

                 SCOPE AND METHODOLOGY .................................................... 12




                                                  vi
                                                                             Audit of NRC’s Shared ―S‖ Drive



BACKGROUND

                The President of the United States has directed Federal agencies to
                promote information sharing with the public and improve the transparency
                of Government operations.8 Nevertheless, applicable laws and
                Governmentwide policies require NRC and other Federal agencies to
                protect some types of information against accidental or intentional
                disclosure. For example, the Federal Government has in recent years
                increased its emphasis on protecting Personally Identifiable Information
                (PII) processed on its computer networks. PII includes information that
                can be used to distinguish or trace an individual’s identity, such as one’s
                date of birth, Social Security Number, or home contact information. NRC
                processes some PII in dedicated record systems to comply with the
                Privacy Act of 1974.9 However, not all PII is subject to Privacy Act
                protections and may be processed on the agency’s shared network
                drives. Given the sensitivity of this information, NRC has specific policies
                that agency staff must follow in storing and transmitting PII electronically.
                Further, NRC has a formal process for documenting potential PII
                breaches, reporting these incidents to the Department of Homeland
                Security,10 and taking remedial action if necessary. As an additional
                precaution, NRC staff perform annual automated scans of the agency’s
                networks to detect PII that may be stored without adequate protections.
                Positive results of these scans are reported to program office staff, who
                then determine the proper course of action on a case-by-case basis.

                NRC staff also process on agency networks a broader category of
                sensitive unclassified information unique to NRC called Sensitive
                Unclassified Non-Safeguards11 Information (SUNSI).12 NRC defines
                SUNSI as:

8
 Office of Management and Budget Memorandum M-10-06; Subject: Open Government Directive;
December 8, 2009.
9
  NRC’s Privacy Act systems of records are documented in the Federal Register, and include records
such as personnel performance appraisals, payroll accounting records, personnel security files, and drug
testing program records.
10
  Specifically, NRC must report a potential PII breach to the Department of Homeland Security’s United
States Computer Emergency Response Team within one hour of discovering the breach.
11
  Safeguards information is information relating to certain material control and accounting procedures for
special nuclear material or security measures for the physical protection of special nuclear material,
source material, or byproduct material.


                                                    1
                                                                     Audit of NRC’s Shared ―S‖ Drive



                           …any information of which the loss, misuse,
                           modification, or unauthorized access can reasonably
                           be foreseen to harm the public interest, the
                           commercial or financial interests of the entity or
                           individual to whom the information pertains, the
                           conduct of NRC and Federal programs, or the
                           personal privacy of individuals.

                  In general, SUNSI is information pertaining to agency operations that
                  should be exchanged only on a need-to-know basis. Further, SUNSI must
                  not be made publicly available without formal internal review for decontrol,
                  or review in response to Freedom of Information Act requests for particular
                  documents. NRC divides SUNSI into the following seven main categories:

                      1. Allegation information.
                      2. Investigation information.
                      3. Security-related information.
                      4. Proprietary information.
                      5. Privacy Act information/PII.
                      6. Federal-, State-, foreign government-, and international agency-
                         controlled information.
                      7. Sensitive internal information.

                  The U.S. National Archives and Records Administration (NARA) is
                  currently leading a Governmentwide initiative to create a primary sensitive
                  information category called ―Controlled Unclassified Information‖ (CUI)13
                  that will include many subcategories that Federal agencies may assign to
                  their CUI documents. Once CUI becomes standardized across the
                  Federal Government, it will supersede SUNSI at NRC. As a result, NRC
                  has developed a set of common document categories and related
                  markings that include the SUNSI categories. NRC has submitted this
                  information to NARA for review and inclusion in the CUI program.

                  NRC staff can process electronic documents containing SUNSI in a
                  variety of ways. For instance, some documents may be saved in the non-
                  public version of NRC’s Agencywide Documents Access and Management


12
     NRC includes PII as a category of SUNSI information.
13
     Executive Order No. 13556 of November 4, 2010.


                                                      2
                                                                                Audit of NRC’s Shared ―S‖ Drive



                   System (ADAMS)14 data system. Staff may also exchange documents on
                   internal SharePoint15 Web sites, which staff can configure to limit access
                   rights to specific employees or groups of employees. Additionally, NRC
                   staff can save documents on shared network drives.16 These shared
                   drives include ―G‖ drives accessible by staff within NRC program offices;
                   an ―R‖ drive, an agencywide drive with read-only access; and an ―S‖ drive,
                   which allows all staff, whose user accounts are on the same file server, to
                   add, read, edit, and delete documents unless documents are stored in
                   folders configured to limit access to specific employees or groups of
                   employees. Regardless of how NRC employees exchange SUNSI on
                   agency networks, Federal law requires that NRC maintain adequate
                   controls over the confidentiality, integrity, and availability of this
                   information.17

                   NRC’s network drives reside on servers located at NRC headquarters,
                   regional offices, and the Technical Training Center. In 2010, NRC
                   completed a process of consolidating its servers in an effort to make more
                   efficient use of its information technology (IT) infrastructure. As part of the
                   process, NRC decommissioned existing servers, and installed new
                   servers from the same vendor product line that supports the agency’s e-
                   mail, Web-based applications, and other IT functions. NRC also
                   transferred data from outgoing servers to new servers and reconfigured
                   connections among various drives to replicate connections that existed
                   before the consolidation process began. This affected the labeling and
                   layout of drives seen by staff on their computer screens. For example,
                   multiple ―R‖ and ―S‖ drives were consolidated into single ―R‖ and ―S‖
                   drives.

                   NRC’s Office of Information Services (OIS) manages the agency’s IT
                   infrastructure and oversees network upgrades, such as server
                   consolidation performed by contractors. OIS also organizes and conducts
                   NRC’s annual PII scans. IT coordinators designated by NRC program

14
     ADAMS is NRC’s official repository for documents pertaining to the agency’s regulatory activities.
15
  SharePoint is a software program that allows staff to set up Web sites to share information with others
and allows staff to manage documents. SharePoint can be used to manage databases, reports, and
business applications.
16
  Documents containing classified or Safeguards information may not be processed on NRC’s
unclassified networks or placed in ADAMS.
17
     Federal Information Security Management Act of 2002, 44 U.S.C § 3542.


                                                       3
                                                              Audit of NRC’s Shared ―S‖ Drive



           offices coordinate within their respective offices reviews of PII scan
           results. These IT coordinators also facilitate IT service requests on behalf
           of staff in their respective program offices. In addition, NRC’s Computer
           Security Office (CSO) plays a primary role in detecting, analyzing and
           responding to information security breaches, as well as developing and
           implementing NRC’s IT security policies.


II.    PURPOSE

           The audit objective was to assess whether NRC effectively protects
           electronic documents containing PII and other types of SUNSI on NRC’s
           shared network drives. This audit did not address protection of
           documents containing classified and Safeguards information. The report
           appendix contains information on the audit scope and methodology.


III.   FINDING

           NRC Can Improve Training, Communication, Coordination, and
           Quality Assurance Controls to Ensure Security of SUNSI on Network
           Drives

           NRC has policies for protecting electronic documents containing SUNSI
           that are processed on agency shared network drives. Nevertheless, NRC
           can improve training, communication, coordination, and quality assurance
           controls to ensure that access to these documents is limited to a need-to-
           know basis. NRC guidance requires that access to documents containing
           SUNSI be controlled on a need-to-know basis. NRC has procedures to
           control documents containing SUNSI that are stored on its computer
           network. Nevertheless, auditors found documents containing specific
           types of SUNSI, such as PII and allegations material, on shared network
           drives without appropriate protections. The problems occurred for four
           main reasons.

              1. NRC has not provided adequate training on specific practices for
                 protecting documents containing SUNSI that are processed on
                 shared network drives.




                                         4
                                                                            Audit of NRC’s Shared ―S‖ Drive



                      2. NRC has not adequately communicated to its staff specific
                         guidance for protecting documents containing SUNSI that are
                         processed on network shared drives.

                      3. There are a range of skills among IT coordinators, but NRC does
                         not provide them with role-based training regarding NRC network
                         and information security policies. This constrains IT coordinators
                         from being able to provide guidance consistently on how to protect
                         SUNSI stored on NRC’s shared network drives and ensure
                         compliance with NRC policy.

                      4. Recent technology upgrades resulted in a temporary loss of access
                         controls over information on the ―S‖ drive.

                  Although auditors found no evidence that SUNSI identified on shared
                  network drives had been compromised, these issues require management
                  attention so that NRC can better manage risks to the confidentiality,
                  integrity, and reliability of SUNSI processed on the agency’s shared
                  network drives.

                  SUNSI Should Be Accessible Only on a ―Need-to-Know‖ Basis

                  NRC Management Directives18 and other internal guidance19 state that
                  NRC staff who have a need to know sensitive information to perform their
                  official duties may have access to that information; otherwise, access
                  should be restricted. NRC provides instructions on how to implement
                  access controls on all categories of SUNSI within ADAMS.20 For example,
                  ―allegation information‖ may not be processed in ADAMS, while ―security-
                  related information‖ may be processed in ADAMS but must have assigned
                  access rights to user groups with a need to access the information to
                  perform their official duties. This guidance also describes how to transmit
                  SUNSI, including PII, within and outside NRC.



18
  Management Directive 12.5, NRC Automated Information Security Program, and Management
Directive 12.6, NRC Sensitive Unclassified Information Security Program.
19
     NRC posts information about SUNSI policies and procedures on the agency’s intranet.
20
  ADAMS has a publicly available version, as well as a non-public version restricted to employees with
network access.


                                                     5
                                                                            Audit of NRC’s Shared ―S‖ Drive



                  Auditors Found Instances of SUNSI, Including PII, on Shared Network
                  Drives

                  Office of the Inspector General (OIG) auditors systematically reviewed
                  documentation stored on the agency’s ―S‖ drive and found documents
                  containing all categories of SUNSI, including PII. Examples of PII found
                  include the personal information of past and current NRC commissioners,
                  including home addresses, home telephone numbers, passport
                  information, and credit card information.21 PII was found despite NRC’s
                  efforts to locate all PII in its annual automated scans as recommended by
                  the OIG in 2006.22 Table 1 shows examples of SUNSI that auditors found
                  in their review of ―S‖ drive documentation.




21
  Some of the PII that auditors found was embedded in portable document format files, or ―PDF files,‖
which can contain images. NRC’s annual PII scan of shared network drives did not detect these files.
22
     OIG-06-A14, Evaluation of Personal Privacy Information Found on NRC Network Drives.

                                                   6
                                                                           Audit of NRC’s Shared ―S‖ Drive



Table 1: Examples of SUNSI Including PII Detected on “S” Drive

Information Category             Sub-Definition                   Example(s) Found on “S” Drive
Personally Identifiable          All information that can be      A Commissioner’s and employees'
Information                      used to distinguish or trace     home addresses, home phone
                                 an individual’s identity.        numbers, passport images, and credit
                                                                  card images; an employee’s personal
                                                                  bank account information; and
                                                                  personnel action documents.
Allegation Information           Confidential or sensitive        Allegation intake forms with names of
                                 allegation information.          accused individuals, accusations
                                                                  against the individuals, and a notice of
                                                                  violation issued as a result of an
                                                                  allegation.
Security-Related Information     10 CFR 2.390 Information,        Multiple files and folders filled with
                                 information that could be        information categorized as ―Security-
                                 useful to a terrorist attack,    Related Information,‖ including
                                 sensitive Homeland Security      requests for information and letters,
                                 information, licensee            information on security of fuel cycle
                                 submitted critical energy        facilities, and cybersecurity program
                                 infrastructure or                information for nuclear facilities.
                                 Transportation Security
                                 Administration information.
Sensitive Internal Information   Attorney client privilege,       More than 50 folders containing legal
                                 attorney work product, pre-      advice and including names and
                                 decisional information,          details of advice sought.
                                 information submitted to the
                                 Commission marked
                                 ―Sensitive,‖ and others.
Investigation Information        Any Office of Investigations     Report of an Office of Investigations
                                 or Office of the Inspector       case.
                                 General investigation related
                                 documents.
Federal-, State-, Foreign        Information not to be            Foreign travel trip reports, SBU
Government, and International    released to foreign nationals,   letters.
Agency Controlled Information    Official Use Only Department
                                 of Energy information, Naval
                                 Nuclear Propulsion
                                 Information, Sensitive but
                                 Unclassified (SBU) from
                                 Department of State, and
                                 others.
Proprietary Information          Trade Secrets, confidential      Multiple IT system management
                                 commercial or financial          documents, including test plans and
                                 information, Institute of        other proprietary data.
                                 Nuclear Power Operations,
                                 Source Evaluation
                                 Proprietary Data.

                                                  7
                                                                                  Audit of NRC’s Shared ―S‖ Drive



                   Additionally, during the course of this audit, access control profiles for
                   allegations folders on a regional office shared network drive changed
                   temporarily to a general default setting.23 This error occurred during a
                   network upgrade and, temporarily, made the allegations folders accessible
                   to any employees with regional office network access, regardless of their
                   need to know this information. Upon detecting this error, NRC staff
                   referred the error to OIS and CSO, and the original access permissions—
                   which limited folder access to three NRC employees—were restored.

                   Training, Communication, Coordination, and Technological Factors
                   Contributed to Improper Handling of SUNSI on NRC Networks

                   The discovery of SUNSI on shared network drives and the release of
                   allegations data in a regional office occurred for four main reasons:

                      1. NRC has not provided adequate training to NRC staff on specific
                         practices for protecting documents containing SUNSI that are
                         processed on shared network drives. Although IT coordinators
                         stated that NRC users receive annual training, the annual online
                         training classes offered by the NRC address broader computer and
                         information security issues. For example, the annual Information
                         Security Awareness course focuses largely on protection of
                         classified24 and Safeguards information, and does not address
                         protection of SUNSI stored electronically on agency shared network
                         drives. NRC’s annual Computer Security Awareness course
                         addresses PII protections, but not NRC-specific policies and
                         procedures for protecting SUNSI.25 Additionally, existing PII training
                         does not include knowledge checks, such as multiple choice
                         questions, and briefly mentions in a single bullet point that staff
                         should not store PII on the agency’s shared network drives.




23
     The correct access control profiles limited folder access to just three NRC regional office staff.
24
  Classified information is information that could cause damage to national security as a result of
unauthorized disclosure.
25
   This training advises staff to store ―sensitive information, including PII‖ only on ―an authorized
information system.‖ It also advises staff never to transmit, store or process this information on a ―non-
senstive system.‖


                                                         8
                                                                        Audit of NRC’s Shared ―S‖ Drive




                      2. NRC has not adequately communicated to its staff specific guidance
                         for protecting documents containing SUNSI that are processed on
                         shared network drives. NRC has issued network announcements
                         regarding SUNSI and PII-specific policies. However, these e-mail
                         announcements—if opened and read by NRC staff—often require
                         staff to follow Intranet links to more detailed discussion of agency
                         policy. In addition, network announcements with detailed
                         instructions for staff are not always timed closely with network
                         changes that could impact SUNSI protection. For example, in
                         December 2010, NRC sent an announcement about changes to
                         network shared drives,26 which advised staff to ―be prudent‖ about
                         information saved on these drives. In May 2011—five months
                         later—NRC sent a more detailed announcement about protecting PII
                         on shared network drives through access control settings.

                      3. Varying skill levels and the limited scope of IT coordinators’ duties
                         constrain their ability to educate staff about policies for handling
                         SUNSI and ensure staff compliance. In one quarter of the 28 IT
                         coordinator interviews, 27 IT coordinators were uncertain whether
                         NRC staff used the agencywide shared ―S‖ drive, and whether it was
                         needed to perform business, thus suggesting a lack of knowledge
                         on where their office’s data is processed, stored, or shared.
                         Additionally, IT coordinators’ formal roles and responsibilities are
                         limited to facilitating IT service requests on behalf of staff. However,
                         auditors found that IT coordinators interact with their customers on
                         network and information security issues—most notably, through their
                         work on annual PII scans—but do not receive role-based training
                         that reflects this work.

                      4. In December of 2010, a network upgrade temporarily removed
                         access control profiles on a limited number of allegations files. NRC
                         staff who use the files reported this error, and corrective action was
                         taken. Although this was an isolated incident, NRC staff
                         acknowledged a need for quality assurance checks after contractors
                         perform network upgrades to ensure access controls are
                         maintained.
26
     The ―R‖ and ―S‖ drives, specifically.
27
  NRC has IT coordinators who support 31 offices including the regions. Some provide agencywide
support. Each office may have one or up to nine IT coordinators.

                                                  9
                                                             Audit of NRC’s Shared ―S‖ Drive




         Management Attention Is Needed To Control Risk of Disclosure,
         Modification, or Deletion of SUNSI

         Despite instances of problems with controls over SUNSI stored on NRC
         shared network drives uncovered by the OIG, auditors found no evidence
         suggesting that this information had been compromised. Nevertheless,
         without proper training, policy communication, IT coordinator support, and
         quality assurance controls, SUNSI on the shared network drives may be at
         greater risk of unintentional or intentional disclosure, modification, and/or
         deletion. This, in turn, could compromise the confidentiality, integrity, and
         reliability of SUNSI that NRC needs to perform its mission and protect the
         privacy of agency staff and public stakeholders. Management attention is
         needed to improve security of SUNSI stored on NRC’s networks, and
         reduce the risk of information security breaches that could compromise
         agency operations and the privacy of its personnel.


IV.   RECOMMENDATIONS

         OIG recommends that the Executive Director for Operations:

            1. Revise current PII training to include practical scenarios and
               knowledge checks that address processing PII on shared network
               drives.

             2. Revise current information security training for NRC staff to address
                specific practices for protecting SUNSI on the agency’s shared
                network drives.

             3. Develop CUI policies and guidance for storing and protecting CUI in
                agency shared drives, and:
                      a. post this guidance on the NRC intranet; and
                      b. include this guidance in annual training.

             4. Provide IT coordinators with role-based training focusing on NRC
                information and network security policies, and means for ensuring
                staff compliance with these policies.

             5. Implement procedures for quality assurance checks following
                network upgrades to ensure that access controls are preserved in

                                       10
                                                          Audit of NRC’s Shared ―S‖ Drive



              shared network drives that process documents containing
              SUNSI/CUI.



V.   AGENCY COMMENTS

        At an exit conference on June 30, 2011, agency management provided
        informal comments on a draft of this report. The Office of the Inspector
        General incorporated some of these comments as appropriate. As a
        result, the agency opted not to provide formal comments for inclusion in
        this report.




                                     11
                                                          Audit of NRC’s Shared ―S‖ Drive



                                                                              Appendix
SCOPE AND METHODOLOGY

       The audit objective was to assess whether NRC effectively protects
       electronic documents containing PII and other types of SUNSI on NRC’s
       shared network drives. To address the audit objective, OIG auditors
       conducted multiple interviews of NRC staff representing OIS and CSO.
       Auditors also conducted 28 interviews with IT coordinators representing
       most NRC program and regional offices. At the time of our analysis, OIS
       listed 92 IT coordinators representing 31 headquarters and regional
       offices. OIG auditors also systematically examined files on the agency’s
       ―S‖ drive to determine whether SUNSI, including PII, was saved
       inappropriately.

       OIG auditors reviewed pertinent NRC and Federal Government guidance,
       including:
              NRC SUNSI Handling Requirements.
              MD 12.6, NRC Sensitive Unclassified Information Security
              Information Program.
              MD 12.5, NRC Automated Information Security Program.
              NIST Special Publication 800-53.
              NIST Special Publication 800-60.

       OIG auditors also reviewed the content of the three required information
       security annual training online classes – Computer Security Awareness ,
       Personally Identifiable Information, and Information Security Awareness –
       for content on SUNSI handling.

       OIG conducted this performance audit, from January 2011 through May
       2011, at NRC headquarters in Rockville, Maryland, in accordance with
       generally accepted Government auditing standards. Those standards
       require the audit to be planned and performed with the objective of
       obtaining sufficient, appropriate evidence to provide a reasonable basis for
       any findings and conclusions based on the stated audit objective. OIG
       believes that the evidence obtained provides a reasonable basis for the
       report findings and conclusions based on the audit objective. OIG
       reviewed and analyzed internal controls related to the audit objective.
       Throughout the audit, auditors were aware of the possibility of fraud,
       waste, or misuse in the program. The audit was conducted by Beth


                                    12
                                              Audit of NRC’s Shared ―S‖ Drive



Serepca, Team Leader; Paul Rades, Audit Manager; Melissa
Schermerhorn, Senior Analyst; and Gail Butler, Analyst.




                          13
